No.

3Jn tbe

~upreme <!Court of tbe mlniteb ~tates
GREGORY ATKINS, CHRISTOPHER GOOCH, KEVIN PROFFITT, and THOMAS ROLLINS, JR., on behalf
of themselves and all others similarly situated,

Petitioners,
v.
DR. KENNETH WILLIAMS, Medical Director, Tennessee Department of Correction,
in his official capacity,

Respondent.
CERTIFICATE OF COMPLIANCE
1, counsel for Petitioners and a member of the Bar of this Court, certify that the Petition
for Writ of Certiorari in the above-captioned case contains 7,390 words, excluding the portions
exempted by Rule 33.l(d), and that it complies with the applicable word limitation.

I declare under penalty of perjury that the foregoing is true and correct.

Michael J. Wall
January 8, 2021

